No. _____
IN THE

Supreme Court of the United States
BRANCH BANKING & TRUST COMPANY,
Petitioner,
v.
SEVIER COUNTY SCHOOLS FEDERAL CREDIT UNION,
ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 7th day of September, 2021, I caused three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Counsel for Respondents:
Gregory Brown
Christopher Field
W. Scott Hickerson
LOWE, YEAGER & BROWN PLLC
900 S. Gay Street, Suite 2102
Knoxville, TN 37902
(865) 521-6527
gb@lyblaw.net
ccf@lyblaw.net
wsh@lyblaw.net

Donald K. Vowell
THE VOWELL LAW FIRM
6718 Albunda Drive
Knoxville TN 37919
(865) 292-0000
don@vowell-law.com

/s/ Thomas H. Dupree Jr.
Thomas H. Dupree Jr.

